AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
    OFFICE OF JUVENILE JUSTICE AND
       DELINQUENCY PREVENTION
               AWARD TO
          EXPERIENCE IN ACTION



         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


         Audit Report GR-30-12-003
                 July 2012
This Page Left Intentionally Blank
    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
        OFFICE OF JUVENILE JUSTICE AND
           DELINQUENCY PREVENTION
                   AWARD TO
              EXPERIENCE IN ACTION

                             EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Office of the Inspector General (OIG)
completed an audit of grant number 2009-JU-FX-0063 in the amount of
$2,762,022 awarded to Experience in Action (Experience Corps). Experience
Corps operates one-to-one mentoring programs that are designed to bring
the experience of adults 55 and over into the classroom. The grant supports
three academic years and targets youth in grades kindergarten through third
who are in need of reading assistance or deemed “at-risk.” The primary goal
of Experience Corps is to engage older adults as tutors and mentors in order
to produce improved literacy in children and thereby build stronger
communities.

      We conducted this audit to determine whether costs claimed under the
grant were allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the award. Unless
otherwise stated in the report, we applied the Office of Justice Programs
(OJP) Financial Guide (Financial Guide) as our primary criteria. 1

      Our audit found that the transactions were generally properly
authorized, classified, supported, and charged to the grant. However,
Experience Corps could improve its internal controls to ensure compliance
with DOJ grant requirements in several areas. During the audit, we found
that Experience Corps lacks proper procedures to maintain important grant
documentation regarding program accomplishments and contract
negotiations or cost or price analysis. Additionally, while Experience Corps is
working to improve its internal controls over its labor cost calculations, as
deemed necessary in its 2010 Single Audit, our audit found instances in
payroll costs that were improperly allocated to the grant. However, because
the grantee remedied these costs prior to the issuance of the audit report,
these costs are not questioned.


       1
          The Financial Guide serves as a reference manual that assists award recipients in
their fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately. OJP requires award recipients to abide by the requirements in the Financial
Guide.
      Further, Experience Corps charged the grant more than $8,500 in
subgrantee costs that we consider unsupported or unallowable. These costs
include the following:

  •   Unallowable allocation of materials and supplies costs totaling $1,172.
      While the subgrantee’s budget allowed for program specific supplies,
      the reimbursed expenses included a water system lease and glass
      repair.

  •   Unallowable mentor stipends of $5,060 for which the subgrantee was
      not entitled to a reimbursement.

  •   Experience Corps subgrantee overcharged the grant $2,318 in
      unemployment insurance over two consecutive months.

      Our report contains 5 recommendations. We discussed the results of
our audit with Experience Corps officials and have included their comments
in the report.




                                      ii
                                    Table of Contents
                                                                                                Page

INTRODUCTION ................................................................................ 2
  Audit Approach .................................................................................. 2
FINDINGS AND RECOMMENDATIONS................................................ 4
  Reporting .......................................................................................... 4
   Federal Financial Reports.................................................................. 5
   Progress Reports ............................................................................. 5
  Drawdowns ....................................................................................... 8
  Budget Management and Control ......................................................... 8
  Grant Expenditures ............................................................................ 8
    Personnel Costs............................................................................... 9
    Other Costs .................................................................................. 11
  Contract Management ...................................................................... 13
  Recommendations ............................................................................ 14
SCHEDULE OF DOLLAR-RELATED FINDINGS ................................... 15
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 16
APPENDIX II - EXPERIENCE IN ACTION’S RESPONSE TO THE DRAFT
    REPORT .................................................................................. 18
APPENDIX III - OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
    DRAFT AUDIT REPORT ............................................................ 26
APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
    SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .. 29
                               INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an
audit of grant 2009-JU-FX-0063 in the amount of $2,762,022 awarded to
Experience in Action (Experience Corps) from the Office of Juvenile Justice
and Delinquency Prevention (OJJDP). Started in 1995, Experience Corps
engages adults 55 and over as tutors and mentors to produce improved
literacy results among students in kindergarten through third grade.
Experience Corps, an independent, non-profit organization headquartered in
Washington, D.C., coordinates a network of local affiliates at 19 sites across
the country. 2 The affiliates are responsible for day-to-day activities of local
projects, while Experience Corps provides support, assistance, and training to
the local programs.

      The Experience Corps award is to support the implementation of the
Academic Mentoring Program through five affiliates: (1) Boston, (2) New
York, (3) Cleveland, (4) the Bay Area, and (5) Tucson. 3 The program focuses
on one-to-one academic mentoring with goals including: reducing truancy
and other incidents of “high-risk behaviors” in school, increasing academic
outcomes among participants, and addressing achievement gaps before they
widen.

Audit Approach

      We conducted this audit to determine whether costs claimed under the
grant are allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the award. To
accomplish this objective, we tested compliance with what we considered the
most important conditions of the grant. Unless otherwise stated in the
report, we used the Office of Justice Programs (OJP) Financial Guide
(Financial Guide) to assess Experience Corps performance and compliance
with grant requirements. 4

       2
            On January 8, 2012, Experience Corps became affiliated with AARP. The terms of
this affiliation are set forth in a Memorandum of Understanding entered into by AARP and
Experience Corps on September 16, 2011. Today, Experience Corps operates as AARP
Experience Corps and receives funding and in-kind support from AARP. AARP Experience
Corps continues to exist as a separate non-profit organization and operates its local
programs through this non-profit organization.
       3
           Philadelphia replaced Tucson as a subgrantee of the award at the start of program
year three (2011-2012) of the grant. Experience Corps closed its operations in Tucson due
to difficulties with the stability and sustainability of the program.
       4
          The Financial Guide serves as a reference manual that assists award recipients in
the fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately. OJP requires award recipients to abide by the requirements in the Financial
Guide.
                                              2
      Specifically, we tested what we believed to be critical award
requirements necessary to meet the objectives of the audit, including:

   •   Reporting to determine if the required federal financial reports and
       progress reports were submitted timely and accurately reflected grant
       activity;

   •   Drawdowns to determine whether grant drawdowns were adequately
       supported and if the grantee was managing receipts in accordance with
       federal requirements;

   •   Budget Management and Control to ensure that Experience Corps
       appropriately tracked costs to approved budget categories;

   •   Grant Expenditures to determine the accuracy and allowability of
       costs charged to the grant; and

   •   Contract Management to ensure compliance with overall financial
       management requirements for contracts.

      The award did not include program income, matching funds, or indirect
costs. The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Appendix I contains additional
information on our objective, scope, and methodology.




                                       3
              FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

       Our audit found that the transactions were generally properly
       authorized, classified, supported, and charged to the grant.
       However, Experience Corps could improve its internal controls to
       ensure compliance with DOJ grant requirements to maintain grant
       documentation regarding program accomplishments and
       procurement decisions. Additionally, we identified $8,550 in
       unallowable and unsupported subgrantee expenses.

Reporting

       The special conditions of the grant require that Experience Corps
comply with administrative and financial requirements outlined in the
Financial Guide and the requirements of the Office of Management and
Budget (OMB) Circular A-133, Audits of States, Local Governments and Non-
Profit Organizations (OMB Circular A-133). 5 The Financial Guide requires that
grantees submit both financial and program progress reports to inform
awarding agencies on the status of each award. Federal Financial Reports
(FFRs) should detail the actual expenditures incurred for each quarterly
reporting period, while progress reports should be submitted semiannually
and describe the activities, obstacles, and achievements of the project
supported by each award.

      Because accurate and timely FFRs and progress reports are necessary
to ensure that DOJ awarding agencies can effectively monitor award activities
and expenditures, we reviewed Experience Corps’ reports for grant number
2009-JU-FX-0063. As detailed in the following sections, Experience Corps
submitted required FFRs and progress reports in a timely manner. However,
while the FFRs accurately reported grant expenditure activity, we were unable
to verify if the progress reports accurately reflected actual program
accomplishments.




       5
          OMB Circular A-133 requires non-federal entities that expend at least $500,000 a
year in federal awards to have an audit conducted of its financial statements. The purpose of
the audit, also known as a Single Audit, is to determine whether the financial statements and
schedule of expenditures of federal awards are presented fairly in all material respects in
conformity with generally accepted accounting principles. As discussed in this report, we
reviewed Experience Corps’ Single Audit for Fiscal Year 2010.
                                             4
Federal Financial Reports

      DOJ awarding agencies monitor the financial performance of each grant
via FFRs. According to the Financial Guide, FFRs should be submitted within
30 days of the end of each quarterly reporting period. Even when there have
been no outlays of grant funds, a report containing zeroes must be
submitted. Awarding agencies may withhold funds or future awards if reports
are submitted late, or not at all.

      To verify the timeliness of the FFRs, we tested the last four reports
submitted for the audited grant. We compared the submission date of each
report to the date each report was due, and found that Experience Corps
submitted all four FFRs in a timely manner.

      The Financial Guide also states that the grantee’s general ledger must
support all amounts reported on the FFRs. To verify the accuracy of the
FFRs, we discussed the FFR processes with Experience Corps’ financial
department and accounting consultants, compared the amounts reported on
the last four FFRs to expenditures recorded in Experience Corps’ accounting
records, and reviewed adjusting entries. Based on our testing, we have
concluded that the FFRs reconciled to the financial records.

Progress Reports

       While FFRs report grant financial activity, progress reports describe the
project status and accomplishments of the DOJ-grant supported program or
project. Progress reports should also describe the status of the project and
compare actual accomplishments to anticipated grant objectives. According
to the Financial Guide, grantees are required to submit progress reports
every six months during the performance period of the award. Progress
reports are due 30 days after the end of each semi-annual reporting period,
June 30 and December 31. DOJ awarding agencies may withhold grant funds
if grantees fail to submit accurate progress reports on time.

      To assess whether Experience Corps submitted progress reports on
time, we reviewed the last four progress reports and compared the
submission dates to the due date for each progress report. We found that all
four progress reports tested were submitted in a timely manner.

      To determine if Experience Corps progress reports contained
achievements related to its program goals and objectives, we analyzed and
compared the progress report for the period January 2011 through June 2011
to the program objectives. Based on our review, Experience Corps was
reporting achievements related to its program goals and objectives to OJJDP.


                                       5
       To assess the accuracy of the progress reports, we selected a sample of
five reported achievements for the period January 2011 through June 2011
and compared them to source documentation. As detailed in Exhibit 1, we
identified discrepancies surrounding the source documentation used to
support the sampled items. Discrepancies include: limited or no
documentation, incomplete information, and reporting errors based on
documentation provided. Therefore, based on the sample, we could not
determine whether Experience Corps accurately reports program
achievements to OJJDP or is meeting it’s agreed upon goals and objectives.

       Exhibit 1: Summary of Sampled Program Accomplishments

                                                        Issues
                                Limited or No          Incomplete
                                   Source                 Source             Reporting
          Sample               Documentation          Documentation           Errors
 283 Students completed
                                        X
 the program in Boston
 116 Students completed
 the program in New York                                      X                   X
 City
 45 Mentors were trained
                                        X                                         X
 in the Bay Area
 Cleveland surveys
 documenting student                                          X                   X
 advancement
 New York City surveys
 documenting student                    X
 advancement
Source: OIG analysis of program data reported for the period January 1, 2011 through
        June 30, 2011.

      Subgrantees report summary performance statistics to Experience
Corps semi-annually. This information serves as the basis of the performance
data Experience Corps reports to OJJDP. However, during our testing, it was
revealed that in many cases, subgrantees maintained limited or no supporting
documentation for the performance information reported. In fact, three of
the four subgrantees tested were unable to provide such supporting
documentation. When asked why the documentation was not maintained as
required by federal grant regulations, one subgrantee explained that, in its
case, the information had been discarded due to space constraints. 6



       6
         According to 28 C.F.R. § 70, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and other Non-Profit
Organization, requires that all award related documentation be retained for three years from
the submission date of the final expenditure report.
                                             6
      Our sample testing also revealed weaknesses in the consistency and
completeness of information reported to Experience Corps. During the audit,
we found that because Experience Corps does not provide uniform reporting
forms to each subgrantee, some subgrantee session and training logs lacked
important information needed to verify the data reported on the progress
reports. For example, Experience Corps requires that students complete 35
sessions with a mentor throughout the year to complete the program. Each
of these sessions must last over thirty minutes. While the New York City
subgrantee could provide the session logs for students who had reportedly
completed the program, the session logs did not indicate the duration of each
session. Therefore, we could not determine whether these students had
spent over 30 minutes in 35 or more sessions as required and reported.

      In addition to the issues identified throughout our sample, during the
audit we found inconsistencies in data reported within the progress reports.
Experience Corps explained that these errors were due to a misunderstanding
of the OJJDP program questions. For example, the progress report asks for
the total number of mentors trained, and while four of the five subgrantees
limited this to the number of mentors trained who work on the DOJ one-to-
one program, one subgrantee included all mentors participating in the
Experience Corps programs, even those not funded under the DOJ grant.
Overall, program data was captured and reported differently by each
subgrantee, allowing for discrepancies in the consistency of the data reported
and consequently jeopardizing the accuracy of the progress report as a
whole.

      Experience Corps is currently working on building its National Program
Database which they believe will create uniformity in program reporting
across all subgrantees. 7 While we agree that the database may assist in
reporting more consistent information, it will not ensure the accuracy of the
data reported and will not address document retention issues identified in the
audit. Because Experience Corps relies solely on the subgrantees for the
program data, and OJJDP relies on the program reports to assess the overall
status of the grant, it is imperative that the information included in the
required progress reports be accurate and verifiable. As our testing revealed,
OJJDP may currently be relying on inaccurate information to assess the
program accomplishments. Therefore, we recommend that OJP require
Experience Corps to: (1) Implement procedures to verify the accuracy of the
data reported by its subgrantees, (2) Require subgrantees to maintain
supporting documentation for all federal grant related activities for at least 3
years from the date of Experience Corps’ submission of its final expenditure
report, and (3) Implement consistent reporting tools to ensure that the

       7
          At the time of the audit, Experience Corps reported that the database is being
piloted and is expected to be rolled-out and in use by all subgrantees by the start of the
2012-2013 academic year.
                                               7
necessary information is captured among subgrantees to validate required
program accomplishments.

Drawdowns

       To obtain DOJ award money, award recipients must electronically
request grant funds via draw downs. The Financial Guide states that award
recipients should only request federal award funds when they incur or
anticipate project costs. Therefore, recipients should time its requests for
award funds to ensure they will have only the minimum federal cash on hand
required to pay actual or anticipated costs within 10 days.

      According to Experience Corps financial management policies, they base
drawdown requests on reimbursements of expenses for salaries, fringe
benefits, subgrantee costs, contractor costs, travel, and services or supplies.
Experience Corps confirmed that they follow its policy to request a drawdown
at least once per month for grantee and subgrantee expenses. To ensure
that Experience Corps requested funds properly and kept minimum federal
cash on hand, we analyzed its drawdowns to date and compared the overall
amount to Experience Corps’ general ledger. Overall, we found that the
amounts drawn down did not exceed the expenditures in the accounting
records.

Budget Management and Control

      The Financial Guide states that grantees should expend funds according
to the budget approved by the awarding agency and included in the final
award. Approved award budgets document how much the recipient is
authorized to spend in high-level budget categories, such as personnel,
supplies, and contractors. The Financial Guide also states that award
recipients may request a modification to approved award budgets to
reallocate amounts between various budget categories within the same
award. No prior approval is required if the reallocations between budget
categories do not exceed 10 percent of the total award amount. We
compared the actual amounts spent in each budget category to the budgeted
amounts in the same categories. For award 2009-JU-FX-0063, Experience
Corps adhered to the Financial Guide requirements.

Grant Expenditures

       According to 2 C.F.R. § 230 Cost Principles for Non-Profit Organizations,
costs are allowable if they are reasonable, consistently applied, adequately
documented, comply with policies and procedures, and conform to any
limitations or exclusions specified in applicable criteria. As of November 30,
2011, Experience Corps’ general ledger reported $1,666,092 in project costs
associated with grant 2009-JU-FX-0063. We sampled $536,812 (32 percent)
                                         8
in expenses charged to the grant to ensure they were allowable, and
identified $8,550 in questioned costs. 8 Exhibit 2 displays by type of sampled
cost, the total value of the expenditures in each category, and the amount of
questioned costs our testing identified.

                        Exhibit 2: Summary of Review of
                               Grant Expenditures

                          Total General             Total Costs           Questioned
   Type of Cost          Ledger Costs ($)           Tested ($)             Costs ($)
Personnel Costs                       159,716                31,611                     0
Fringe Costs                           35,066                     0                     0
Subgrantee Costs                    1,377,566               470,417                 8,550
Subcontractor Costs                    65,041                23,795                     0
Travel Costs                           18,139                10,507                     0
Other Direct Costs                     10,564                   482                     0
              TOTAL              $ 1,666,092              $536,812                $ 8,550
Source: Experience Corps’ accounting records and OIG analysis of total questioned costs

Personnel Costs

       We reviewed the Experience Corps’ policies for timekeeping and
charging grants the costs associated with salaries and benefits earned by its
personnel. Experience Corps requires all employees to submit a timesheet
that details the time spent on each project or grant for each semi-monthly
pay period. Once the employees complete their timesheets, they submit
them to their supervisor for approval. Experience Corps’ outside accountant
inputs the timesheet data into an online payroll system to produce the
summary report known as the payroll processing report. The payroll
processing report is reviewed by Experience Corps’ Chief Financial Officer
(CFO). Once the CFO attests to the accuracy of the employees’ hours and
salaries for the period, the outside accountant prepares a labor distribution
report known as the grant allocation spreadsheet. This spreadsheet details
the total dollars charged to each grant, and allocates the fringe benefit costs
to each grant.

      The Experience Corps’ 2010 Single Audit report, dated September 7,
2011, cited a significant deficiency with respect to salary postings based on
timesheets. According to the Single Audit, salaries were not properly charged
to programs based on the activity recorded on timesheets. Additionally, the
Single Audit cited a finding of material weakness in which timesheets were

      8
          Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.
                                             9
prepared using a percentage of time spent per program, rather than on the
actual hours worked per pay period, as required by 2 C.F.R. § 230. To
determine if timesheets were properly authorized and allocated to the grant,
we judgmentally selected five months to test. 9 We examined timesheets and
payroll distribution records, we recalculated salaries allocated to the grant,
and we ascertained whether the salaries were properly charged to the grant.

       Salaries

       In response to the Single Audit findings, Experience Corps implemented
procedures to track employees’ time based on hours worked on each grant
rather than using percentages. To determine if the grantee allocation of labor
was accurate, we selected periods prior to the procedure change (February –
April 2010) and after the procedure change (March and July 2011). We
identified inaccurate payroll charges for April 2010, one of the five months
tested. The inaccuracies were due to the use of percentages to allocate labor
costs that did not agree with the employees’ timesheets. When we applied
the correct percentages to the salaries per the allocation worksheet we found
that the grantee charged $1,108 more in payroll costs than what is supported
by the timesheets. However, Experience Corps has remedied the payroll
charges and we are not questioning the costs. 10 Because our testing did not
identify any significant discrepancies in the allocation of labor charges for
periods after the revised labor procedures were implemented, we believe that
Experience Corps took the necessary steps to remedy the single audit
findings.

       Fringe Benefits

      When Experience Corps’ employees work on grant projects, Experience
Corps incurs costs associated with providing its employees fringe benefits
such as payroll taxes, health insurance, and pension plan contributions. To
allocate the cost of fringe benefits to the DOJ grant, OJP approved a fringe
benefit rate of 24 percent that Experience Corps applies to direct payroll
costs. We reviewed, analyzed, and calculated the actual fringe benefit rate
Experience Corps charged the grant through November 30, 2011. We found
that Experience Corps charged the grant fringe benefits at a rate of 22
percent, which is less than the 24 percent budgeted rate. Therefore, we take


       9
         Experience Corps allocates its payroll on a monthly basis. We selected the months
of February 2010, March 2010, April 2010, March 2011, and July 2011 for our testing.
       10
          Prior to December 2011, the initiation of our audit, and in response to the single
audit, Experience Corps conducted an analysis and reconciled $768 of the $1,108 in payroll
costs. Further, during our audit Experience Corps agreed that an additional $340 in payroll
costs were inaccurately charged to the grant and posted an adjusting entry to correct the
account.
                                             10
no exception with Experience Corps allocation of fringe benefits to the grant
through November 30, 2011.

Other Costs

      We selected a judgmental sample of 37 transactions from award 2009-
JU-FX-0063 totaling $505,201 to determine if the charges were included in
the approved budget, allowable, and allocable to the DOJ award. As shown in
Exhibit 3, we questioned $8,550 of subgrantee costs.

          Exhibit 3: Summary of Questioned Subgrantee Costs

             General Ledger
     Account                        Amount      Questioned
    Description       Date            ($)       Amount ($)              Note
     Supplies and
      Materials       12/31/2010        1,481           1,172   Unallowable allocation
   Mentor Stipends    07/31/2010        5,060           5,060   Unallowable
   Unemployment
     Insurance        02/28/2011        1,525           1,111   Unsupported
   Unemployment
     Insurance        01/31/2011        1,641           1,207   Unsupported
                           TOTAL       $9,707           $8,550
Source: OIG analysis of Experience Corps general ledger and supporting documentation

      Unallowable Materials and Supplies

      Experience Corps’ Boston subgrantee’s budget provides for the
reimbursement of direct program supplies based on the number of students
or the number of mentors. The budget does not provide for the allocation of
the subgrantee’s general office supplies. During our testing, we identified a
reimbursement request from the Boston subgrantee in the amount of $1,481
for materials and supplies. According to the grantee, the $1,481 allocated to
the OJJDP grant is comprised of $309 for program materials and supplies and
$1,172 for office administration supplies including a water system lease and
glass repair. Because the $309 funded materials that directly supported the
OJJDP program, we do not question these expenses. However, since the
subgrantee’s budget does not provide for the allocation of general office
supplies including a water system lease and glass repair, we consider $1,172
unallowable, and, therefore, recommend OJP remedy $1,172 in unallowable
materials and supplies costs.




                                          11
     Unallowable Mentor Stipends

       Experience Corps has operational and mentor stipend agreements with
its subgrantees. Pursuant to these agreements, not all of Experience Corps’
subgrantees will be reimbursed for mentor stipends with OJJDP grant funds.
In reviewing the Bay Area subgrantee’s general ledger activity for July 2010,
we found that $5,060 of salaries and associated fringe costs, labeled as
“Mentors/Tutors” in the general ledger, was charged to the OJJDP grant. The
Experience Corps agreement with the Bay Area subgrantee does not provide
for reimbursement of the Bay Area’s mentor charges. Therefore, we are
questioning as unallowable the $5,060 of salaries and associated fringe costs
charged to the OJJDP grant for “Mentors/Tutors”, and we recommend OJP
remedy $5,060 in unallowable mentor stipends.

       In addition to the unallowable mentor stipend costs charged to the DOJ
grant, while reviewing Experience Corps’ mentor participation agreements
maintained by its five subgrantees, we found discrepancies between what was
documented regarding stipends in the contracts and what was actually
charged to the grant. For example, while mentor agreements in New York
City stated that volunteers would receive $256 in regular monthly
increments, grant charges showed varying payments ranging from $64 to
$320. Experience Corps explained that New York City mentors are paid
hourly not monthly as agreed to in the contract. The overall costs charged to
the grant did not exceed the amount allocated for stipends in the subgrantees
budgets; therefore, we are not making a formal recommendation, but provide
this information to Experience Corps for its use in improving oversight of its
subrecipients.

     Unsupported Unemployment Insurance

      The Boston subgrantee’s approved budget contained an amount for
unemployment insurance - 4.5 percent of the first $10,200 in salary paid to
each grant staff member for the calendar year. During testing, we identified
two months in which this affiliate was reimbursed more for unemployment
insurance than was allowed per their approved budget. Exhibit 4 summarizes
the questioned unemployment insurance costs.




                                     12
Exhibit 4: Summary of Unsupported Unemployment Insurance Costs

               Total Allowed          Amount Reimbursed                Questioned
                 Based on              to Subgrantee and             Unemployment
               Monthly Salary         Charged to the Grant           Insurance Cost
  Month             ($)                       ($)                         ($)
 Jan. 2011                    434                       1,641                       1,207
 Feb. 2011                    434                       1,545                       1,111
    TOTAL                   $868                       $3,186                     $2,318
Source: Experience Corps’ accounting records and OIG analysis of total questioned costs

      As a result, we question $2,318 as unsupported unemployment
insurance, and we recommend OJP remedy $2,318 in unsupported
unemployment insurance costs.

Contract Management

       In October 2011, Experience Corps implemented procurement policies
that require negotiations and final contract documents to be in writing and
properly maintained and a cost or price analysis to be completed. 11
Experience Corps awarded four formal contracts under the DOJ grant, all of
which support the development of the Experience Corps National Program
Database. The first contract was awarded in the amount of $15,000 to
survey subgrantees and to assess the data necessary to be captured by a
program-wide Experience Corps database. The second contract, in the
amount of $53,100, was solicited and awarded for the complete development
of the National Program Database. The third contract in the amount of
$10,710 was awarded to a consultant to help pilot and train subgrantees in
using the database. Finally, a fourth contract, costing $9,900, was awarded
to integrate a part-time support team that would implement and maintain the
database at the affiliate level.

      We found that three of the four contracts were solicited through a
formal request for proposal and competitively awarded by Experience Corps.
While Experience Corps was able to provide justifications for each of the
awards, we were unable to determine from its documentation if Experience
Corps performed a cost or price analysis for three of the four awards and
therefore could not determine whether the vendor selected provided the best
value to the government in all cases. Specifically, negotiations for three of
the four contracts were not formally documented and maintained in
Experience Corps’ grant files. While we understand that most of the contracts
were awarded prior to the issuance of Experience Corps internal Procurement

      11
           According to 2 C.F.R. § 215, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and other Non-Profit
Organization, the auditee is required to keep at a minimum, the basis for contractor
selection, as well as the basis for award cost or price. (2011)
                                            13
Policies, in order to ensure that contracts are fairly and competitively
negotiated and obtain the goods or services in an effective manner, all
grantees must document the basis for award cost or price. While we believe
that Experience Corps has taken the necessary steps to implement a
procurement policy, we recommend that OJP require Experience Corps to
clearly document and maintain the analysis, negotiation, and justification for
each awarded contract.

Recommendations

We recommend that OJP:

1. Require Experience Corps to: (1) Implement procedures to verify the
   accuracy of the data reported by its subgrantees, (2) Require subgrantees
   to maintain supporting documentation for all federal grant related
   activities for at least 3 years from the date of Experience Corps’
   submission of its final expenditure report, and (3) Implement consistent
   reporting tools to ensure that the necessary information is captured
   among subgrantees to validate required program accomplishments.

2. Remedy the $1,172 in unallowable materials and supplies costs.

3. Remedy the $5,060 in unallowable mentor stipends.

4. Remedy the $2,318 in unsupported unemployment insurance costs.

5. Require that Experience Corps clearly document and maintain the
   analysis, negotiation, and justification for each awarded contract.




                                      14
            SCHEDULE OF DOLLAR-RELATED FINDINGS



QUESTIONED COSTS: 12                                           AMOUNT PAGE
                                                                 ($)
Unallowable Subgrantee Costs

Materials & Supplies and Mentor Stipends                           6,232        11

    Total Unallowable Subgrantee Costs                           $6,232

Unsupported Subgrantee Costs

Unemployment Insurance Costs                                       2,318        13

    Total Unsupported Subgrantee Costs                           $2,318

Total Questioned Costs                                            $8,550




      12
           Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.
                                            15
                                                         APPENDIX I

         OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant reviewed were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review performance
in the following areas: (1) federal financial reports and progress reports, (2)
drawdowns, (3) budget management and control, (4) expenditures, and (5)
contract management.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

       Our audit concentrated on grant no. 2009-JU-FX-0063 in the amount of
$2,762,022 to Experience in Action (Experience Corps) awarded by the Office
of Juvenile Justice and Delinquency Prevention. Experience Corps operates
one-to-one mentoring programs that are designed to bring the experience of
adults 55 and over into the classroom. The grant funds three academic years
of this program targeted at youth in grades kindergarten through third who
are in need of reading assistance or deemed “at-risk”. The primary goal of
Experience Corps is to engage older adults as tutors and mentors in order to
produce improved literacy results in children and thereby build stronger
communities.

       We tested compliance with what we considered to be the most
important conditions of the award. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide and the
award documents.

      In conducting our audit, we performed sample testing in the following
areas:

   •   Drawdowns. We analyzed Experience Corps overall drawdowns of
       $1,550,759 for the DOJ award from the inception of the award through
       November 30, 2011. Experience Corps provided documentation
       supporting the drawdown requests.

   •   Payroll. We reviewed Experience Corps’ Single Audit report, reviewed
       policies, and spoke with officials regarding timekeeping and the
                                      16
      charging of personnel costs. To determine whether Experience Corps’
      labor costs were supported and allowed, we judgmentally selected pay
      periods for five months to test. We analyzed the fringe rate to ensure
      the charges were consistent with the approved rate, and determined
      whether personnel costs were computed correctly, properly authorized,
      accurately recorded, and properly allocated. Further, we reviewed the
      composition and calculation of the OJJDP approved final fringe rate.

  •   Transactions. To test Experience Corps’ transactions for
      authorizations, vouchers, and supporting documentation of the
      expense, we judgmentally selected 37 non-payroll transactions totaling
      $505,201. We analyzed the transactions to determine if the
      transactions were properly authorized, classified, recorded, supported,
      and charged to the grant.

  •   Contract Management. We interviewed the Experience Corps’
      personnel for this award regarding the analysis, negotiations, and
      available documentation maintained for the selection of contractors.
      We obtained all available solicitations, request for proposals, negotiated
      contracts, and other supporting documentation for contractors
      performing services under the subject grant.

     In addition, we reviewed the timeliness and accuracy of Financial Status
and Progress Reports and reviewed the internal controls of the financial
management system.




                                      17
                               APPENDIX II

EXPERIENCE IN ACTION’S RESPONSE TO
        THE DRAFT REPORT




    Grant Award 2009-JU-FX-0063

Draft Audit Report dated May 16, 2012

         Grantee Response




                   18
June 6, 2012

Troy M. Meyer                                                   via email: troy.meyer@usdoj.gov
Regional Audit Manager                                          via US Mail
Washington Regional Audit Office
Office of the Inspector General
US Department of Justice
1300 North 17th Street, Suite 3400
Arlington, VA 22209

Dear Mr. Meyer,

This communication is in response to the draft audit report, dated May 16, 2012, issued by the
Department of Justice (OJP), Office of the Inspector General (OIG), Washington Regional Audit Office,
through the Office of Justice Programs (OJP) related to an Office of Juvenile Justice and Delinquency
Prevention (OJJDP) Grant Award 2009-JU-FX-0063 in the amount of $2,762,022 awarded to Experience
in Action, d/b/a Experience Corps. The OIG requested that Experience Corps submit a written response
prior to its issuance of the final audit report.

The following response from Experience Corps includes explanations and supporting documentation
regarding its consideration of the OIG recommendations and its subsequent actions to remedy findings
and ensure compliance with the recommendations in subsequent events and transactions.

Experience Corps’ response is being submitted electronically and through US Mail. The response is
structured as follows:

      A. Request to modify Auditors’ Report for Clarification
      B. Response to Auditors’ Recommendations, Draft Audit Report, page 13:
            1. Program Data Verification (includes Attachments 1.1.a-c, 1.2.a-b, 1.3.a-b)
            2. Remedy $1,172 Questioned Costs (includes Attachment 2.a)
            3. Remedy $5,050 Questioned Costs (references Attachment 2.a)
            4. Remedy $2,318 Questioned Costs (references Attachment 2.a)
            5. Procurement Procedures

Experience Corps has appreciated the opportunity to serve under the OJJDP’s Mentoring Initiative, and
it remains committed to producing results that enhance OJJDP’s goals.

Sincerely,


Lester Strong, CEO
Experience Corps


cc:      Linda J. Taylor, Lead Auditor, Audit Coordination Branch: linda.taylor2@usdoj.gov
         Frank Roller, DOJ OIG: frank.roller@usdoj.gov
         Gwen Dilworth, OJJDP/DPD: Gwendolyn.dilworth@usdoj.gov
         Laura Chambers, Experience Corps AOR: lchambers@aarp.org
         Christina New-Watling, Experience Corps Project Director: cnew@aarp.org
         Ron Mezo, Experience Corps CFO: rmezo@aarp.org
         Mike Schuster, AARP Office of General Counsel: mschuster@aarp.org



                                                                  19
                                                                                             P age|2
                                                                          Grant Award 2009-JU-FX-0063
                                                                 Draft Audit Report, dated May 16, 2012
                                                                                      Grantee Response

A. Request to modify Auditors’ Report for Clarification
       1. The Grantee respectfully requests that the auditors modify Footnote 2, page 1 as this
          is a critical description of Experience Corps’ relationship with AARP. Because this
          description will be included in public statement, the description of the relationship
          should read as follows:
           “On January 8, 2012, Experience Corps became affiliated with AARP. The terms of this affiliation
           are set forth in a Memorandum of Understanding entered into by AARP and Experience Corps on
           September 16, 2011. Today, Experience Corps operates as AARP Experience Corps and receives
           funding and in-kind support from AARP. AARP Experience Corps continues to exist as a separate
           non-profit organization and operates its local programs through this non-profit organization.”

       2. The Grantee respectfully requests that the auditors modify descriptions of
          “Questioned Costs,” Unallowable Costs and Unsupported Costs, page 14:
          2.1 The description for Unallowable Costs is labeled as “Sub-grantee Costs”. While
              Grantee concurs with the Unallowable Costs, Experience Corps considers the label
              inconsistent with Unsupported Costs since both Costs are sub-grantee costs.
              Therefore, the Grantee respectfully requests that the Unallowable Costs description
              be modified for clarification and be labeled as “Sub-grantee Costs – Supplies and
              Stipends.”
          2.2 The description for Unsupported Costs is labeled “Unemployment Insurance
              Costs.” While Grantee concurs with the Unsupported Costs, Experience Corps
              considers the label inconsistent with Unallowable Costs since both Costs are sub-
              grantee costs. Therefore, the Grantee respectfully requests that the Unsupported
              Costs description be modified for clarification and labeled as “Sub-grantee Costs –
              Unemployment Insurance.”

B. Response to Auditors’ Recommendations

1. Require Experience Corps to: (1) Implement procedures to verify the accuracy of the data
   reported by its sub-grantees, (2) Require sub-grantees to maintain supporting
   documentation for all federal grant related activities for at least 3 years from the date of
   Experience Corps’ submission of its final expenditure report, and (3) Implement consistent
   reporting tools to ensure that the necessary information is captured among sub-grantees
   to validate required program accomplishments.

   Auditors’ observation: Draft Audit Report, page 5. To assess the accuracy of the progress
   reports, we selected a sample of five reported achievements for the period January 2011
   through June 2011 and compared them to source documentation. As detailed in Exhibit 1
   [Draft Audit Report], we identified discrepancies surrounding the source documentation
   used to support the sampled items. Discrepancies include: limited or no documentation,
   incomplete information, and reporting errors based on documentation provided. Therefore,




                                                   20
                                                                                      Page|3
                                                                  Grant Award 2009-JU-FX-0063
                                                         Draft Audit Report, dated May 16, 2012
                                                                              Grantee Response

based on the sample, we could not determine whether Experience Corps accurately reports
program achievements to OJJDP or is meeting it’s agreed upon goals and objectives.

1.1 Implement procedures to verify the accuracy of the data reported by its sub-grantees.

Questioned Cost:        None

Grantee’s response: Experience Corps will verify the accuracy of data reported to OJP by
comparing outputs reported by the sub-grantees to source documents, by tracking a sample of
reported outcomes back to source documentation before reporting begins, and testing program
data during annual site monitoring visits.

Experience Corps collects data to determine progress towards meeting performance measures
in two ways, (1) surveys are completed by teachers at the beginning and end of the school year
to assess student progress, and (2) a form is filled out by sub-grantees with program outputs at
the end of each 6 month reporting period. Teacher-completed surveys measure individual
student outcomes and some program outputs; Experience Corps receives a pre and post survey
for each student being served in the program. Forms are based on those maintained by sub-
grantees for program outputs, such as the number of mentors trained and the number of
students who have exited the program.

    To verify the accuracy of the performance measures reported to OJP from these two
    collection methods, Experience Corps will:
    • Develop written procedures for verifying accurate data entry when transferring data
        from the hard-copy pre- and post- teacher surveys into excel. One of the audit findings
        sites reporting errors that were directly linked to a difference in data on the hardcopy
        teacher surveys (primary source) and the data in excel that was used to report
        performance measures to OJP. Therefore, the evaluation procedures will include an
        additional step to test outputs and outcomes rooted in the hardcopy teacher surveys
        and reported sub-grantee outputs. This will be accomplished by comparing samples of
        processed data (outcomes and outputs) to the hardcopy surveys before the outputs and
        outcomes are reported to OJP (See Attachment 1.1.a – Evaluation Policies &
        Procedures Manual)
    • Compare the outputs reported by each sub-grantee to the number of surveys that are
        collected. (i.e. if program reports that 400 students were served, we will verify the
        accuracy of that number by counting the number of post surveys completed by teachers
        for that site.) (See Attachment 1.1.a – Evaluation Policies & Procedures Manual)
    • Test source documents used for reporting and maintained by sub-grantees during the
        annual site monitoring visit. Timesheets are always tested during site monitoring visits.
        We will test session logs, training sign-in sheets, and other source documents during
        future site monitoring visits. Testing methods for source documentation will be added
        to our audit procedures manual for sub-grantees. (See Attachment 1.1.b – Audit
        Procedures Manual excerpt)



                                             21
                                                                                        P age|4
                                                                   Grant Award 2009-JU-FX-0063
                                                          Draft Audit Report, dated May 16, 2012
                                                                               Grantee Response

    • During semi-annual in-person sub-grantee meeting in July 2012, we will incorporate
      training for the sub-grantees on processes for them to initiate verifying the accuracy of
      data before they send data to us, thus increasing the sense of responsibility for due
      diligence. (See Attachment 1.1.c – National Meeting Agenda draft)



1.2 Require sub-grantees to maintain supporting documentation for all federal grant related
    activities for at least 3 years from the date of Experience Corps’ submission of its final
    expenditure report.

    Questioned Cost:    None

    Grantee’s response: Experience Corps requires sub-grantees to maintain supporting
documentation for all federal grant related activities for at least 3 years from the date of the
submission of our final expenditure report. Compliance with OMB circulars and federal
regulations is defined in each sub-grant agreement, which was signed by program directors at
each sub-grantee prior to receiving grant awards from OJP. To highlight and ensure that sub-
grantees follow these regulations, Experience Corps has:



        • Conducted a compliance training for OJP sub-grantees at our last in-person meeting
          in March 2012 to highlight the need to retain records for at least 3 years from the
          date of the submission of the final expenditure report and explained the types of
          documents that must be retained, such as daily session logs filled out by members
          and training sign-in sheets. We also explained that transferring data from these
          forms into databases did not release the site from the requirement to retain original
          hardcopy records unless original paper was scanned into a .pdf and stored
          electronically. (See Attachment 1.2.a – Compliance Training)
        • Notified all sub-grantees via email reminding them of the record retention
          regulations and reiterating that the regulation pertains to any document that
          supports any number that we report to OJP. (See Attachment 1.2.b – Record
          Retention email)
        • Require each sub-grantee that was cited in the audit report to provide a
          documented plan for maintaining files. (Example: one sub-grantee, who had
          transferred information from session logs into their database and did not maintain
          original copies due to storage space challenges, now plans to have a volunteer scan
          and .pdf all session logs for the school year; this will be an activity completed the
          summer following each school year. The storage of electronic images of the session
          logs will be retained for the appropriate period of time.) Sub-grantees will be
          required to submit documentation of this policy and procedure, after which
          Experience Corps will review by July 31, 2012.




                                              22
                                                                                        Page|5
                                                                    Grant Award 2009-JU-FX-0063
                                                           Draft Audit Report, dated May 16, 2012
                                                                                Grantee Response

       We will continue to reinforce and verify that documentation is being retained during annual
       monitoring visits. We will verify sites are compliant with this requirement by discussing
       their record retention policy and reiterating the importance of keeping the documentation
       for at least three years after the last expenditure report is submitted.



   1.3 Implement consistent reporting tools to ensure that the necessary information is captured
       among sub-grantees to support required program accomplishments.

       Questioned Cost:    None

       Grantee’s response: Experience Corps has always required sub-grantees to collect
   information through forms and tools to report performance measures to OJP. To ensure that
   reporting tools are consistently collecting information required to support program
   accomplishments, Experience Corps will:

           • Create a policy requiring sub-grantees to incorporate the collection of standard
             information into all of their reporting tools. (See Attachment 1.3.a – Sub-grantee
             Tracking Tools Policy)
           • Disseminate the new policy and explain to sub-grantees during semi-annual in-
             person meeting why standard features must be incorporated into reporting tools
             and ensure sub-grantees understand what they are actually collecting. (See
             Attachment 1.1.c – National Meeting Agenda draft)
           • Add instructions to the data collection tool that the National Office sends to each
             sub-grantee at the end of each reporting period to ensure that sub-grantees are
             reporting the same information. (See Attachments 1.3.b – OJJDP End of Year 3
             Reporting Form)

2. Remedy the $1,172 in unallowable materials and supplies costs.

   Auditors’ observation: Draft Audit Report, page 11. [An Experience Corps sub-grantee’s]
   budget provides for the reimbursement of direct program supplies based on the number of
   students or the number of mentors. The budget does not provide for the allocation of the
   sub-grantee’s general office supplies. During our testing, we identified a reimbursement
   request from the Boston sub-grantee in the amount of $1,481 for materials and supplies.
   According to the grantee, the $1,481 allocated to the OJJDP grant is comprised of $309 for
   program materials and supplies and $1,172 for office administration supplies including a
   water system lease and glass repair. Because the $309 funded materials that directly
   supported the OJJDP program, we do not question these expenses. However, since the sub-
   grantee’s budget does not provide for the allocation of general office supplies including a
   water system lease and glass repair, we consider $1,172 unallowable….




                                               23
                                                                                       Page|6
                                                                    Grant Award 2009-JU-FX-0063
                                                           Draft Audit Report, dated May 16, 2012
                                                                                Grantee Response

   Questioned Cost:       $1,172

   Grantee’s response: Experience Corps concurs with the Auditors’ adjustment recommendation
   in the amount of $1,172 for Supplies and Materials. Experience Corps has made the appropriate
   adjusting journal entry has been made to the general ledger. The amount of $1,172 has been
   netted against Experience Corps’ OJJDP grant drawdown processed on 05/25/2012. (See
   Attachments 2.0.a – Adjusting Journal Entry and Federal Draw)


3. Remedy the $5,060 in unallowable mentor stipends.

   Auditors’ observation: Draft Audit Report, page 11. Experience Corps has operational and
   mentor stipend agreements with its sub-grantees. Pursuant to these agreements, not all of
   Experience Corps’ sub-grantees will be reimbursed for mentor stipends with OJJDP grant
   funds. In reviewing the Bay Area sub-grantee’s general ledger activity for July 2010, we
   found that $5,060 of salaries and associated fringe costs, labeled as “Mentors/Tutors” in the
   general ledger, was charged to the OJJDP grant. The Experience Corps agreement with the
   Bay Area sub-grantee does not provide for reimbursement of the Bay Area’s mentor
   charges.

   Questioned Cost:       $5,060

   Grantee’s response: While Experience Corps considers the sub-grantee’s transactions, totaling
   $5,060, were appropriately charged as costs to the grant, it concurs with DOJ-OIG that the
   source documentation is in error, thereby not supporting the transactions. Experience Corps
   has made the appropriate adjusting journal entry to the general ledger. The amount of $5,060
   has been netted against Experience Corps’ OJJDP grant drawdown processed on 05/25/2012.
   (Reference Attachment 2.0.a – Adjusting Journal Entry and Federal Draw)




4. Remedy the $2,318 in unsupported unemployment insurance costs.

   Auditors’ observation: Draft Audit Report, page 12. [One of Experience Corps’ sub-
   grantee’s] approved budget contained an amount for unemployment insurance - 4.5
   percent of the first $10,200 in salary paid to each grant staff member for the calendar year.
   During testing, we identified two months in which this affiliate was reimbursed more for
   unemployment insurance than was allowed per their approved budget. [The Draft Audit
   Report,] Exhibit 4 summarizes the questioned unemployment insurance costs.




                                              24
                                                                                        P a g e |7
                                                                     Grant Award 2009-JU-FX-0063
                                                            Draft Audit Report, dated May 16, 2012
                                                                                 Grantee Response


   Questioned Cost:       $2,318

   Grantee’s response: Sub-grantee Unemployment Insurance – $1,111 & $1,207 (Total $2,318).
   Experience Corps concurs with the recommended adjustments of $1,111 and $1,207 totaling
   $2,318. Experience Corps has made the appropriate adjusting journal entry to the general
   ledger. Experience Corps has netted this amount against its OJJDP grant drawdown processed
   on 05/25/2012. (Reference Attachment 2.0.a – Adjusting Journal Entry and Federal Draw)


5. Require that Experience Corps clearly document and maintain the analysis, negotiation,
   and justification for each awarded contract.

   Auditors’ observation: Draft Audit Report, page 13. We found that three of the four contracts
   were solicited through a formal request for proposal and competitively awarded by Experience
   Corps. While Experience Corps was able to provide justifications for each of the awards, we
   were unable to determine from its documentation if Experience Corps performed a cost or price
   analysis for three of the four awards and therefore could not determine whether the vendor
   selected provided the best value to the government in all cases. Specifically, negotiations for
   three of the four contracts were not formally documented and maintained in Experience Corps’
   grant files.

   Questioned Cost:       None

   Grantee’s response: The Grantee concurs with the auditors’ recommendation that
   procurement process documentation be maintained on its negotiation, analysis, selection
   justification, and evaluation of its contractors. In order that the Grantee monitor
   procurement and retain record of these activities, Experience Corps will train assigned staff
   on the process of procuring goods and services. The training will provide for a thorough
   understanding of the Procurement policy and instruct staff on the proper completion of
   documentation and matrices for comparing value and economy. Documentation templates
   will be shared during the Procurement orientation to manage consistent practice. Thereafter,
   completed documentation prepared by assigned procurement staff will demonstrate
   Experience Corps’ commitment to its policies and to appropriation. Experience Corps will
   prepare for and conduct this staff training by July 31, 2012.




                                               25
                                                                          APPENDIX III

   OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
               DRAFT AUDIT REPORT

                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                 Office of Audit, Assessment, and Management



                                                 Washington, D.C. 20531




June 15, 2012


MEMORANDUM TO:               Troy M. Meyer
                             Regional Audit Manager
                             Washington Regional Audit Office
                             Office of the Inspector General

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Audit of the Office of Justice
                             Programs, Office of Juvenile Justice and Delinquency Prevention
                             Award to Experience in Action, d/b/a Experience Corps

This memorandum is in response to your correspondence, dated May 16, 2012, transmitting the
subject draft audit report for Experience in Action, d/b/a Experience Corps (Experience Corps).
We consider the subject report resolved and request written acceptance of this action from your
office.

The report contains five recommendations and $8,550 in questioned costs. The following is the
Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For ease
of review, the recommendations are restated in bold and are followed by our response.




                                              26
     1. We recommend that OJP require Experience Corps to: (1) implement procedures to
        verify the accuracy of the data reported by its sub-grantees; (2) require
        sub-grantees to maintain supporting documentation for all Federal grant related
        activities for at least three years from the date of Experience Corps’ submission of
        its final expenditure report; and (3) implement consistent reporting tools to ensure
        that the necessary information is captured among sub-grantees to validate required
        program accomplishments.

        OJP agrees with the recommendation. We will coordinate with Experience Corps to
        obtain a copy of procedures implemented to ensure that: (1) Experience Corps verifies
        the accuracy of the data reported by its sub-grantees; (2) requires sub-grantees to
        maintain supporting documentation for all Federal grant related activities for at least three
        years from the date of Experience Corps’ submission of its final expenditure report; and
        (3) implements consistent reporting tools to ensure that the necessary information is
        captured among sub-grantees to validate required program accomplishments.

2.      We recommend that OJP remedy the $1,172 in unallowable materials and supplies
        costs.

        OJP agrees with the recommendation. We will coordinate with Experience Corps to
        remedy the $1,172 in questioned materials and supplies costs. If adequate documentation
        cannot be provided to support the allowability of these costs, we will request that
        Experience Corps return the funds to the U.S. Department of Justice (DOJ), adjust their
        accounting records to remove the costs, and submit a revised Federal Financial Report
        (FFR) for award number 2009-JU-FX-0063.

3.      We recommend that OJP remedy the $5,060 in unallowable mentor stipends.

        OJP agrees with the recommendation. We will coordinate with Experience Corps to
        remedy the $5,060 in questioned costs related to mentor stipends. If adequate
        documentation cannot be provided to support the allowability of these costs, we will
        request that Experience Corps return the funds to the DOJ, adjust their accounting records
        to remove the costs, and submit a revised FFR for award number 2009-JU-FX-0063.

4.      We recommend that OJP remedy the $2,318 in unsupported unemployment
        insurance costs.

        OJP agrees with the recommendation. We will coordinate with Experience Corps to
        remedy the $2,318 in unsupported unemployment insurance costs. If adequate
        documentation cannot be provided to support these costs, we will request that Experience
        Corps return the funds to the DOJ, adjust their accounting records to remove the costs,
        and submit a revised FFR for award number 2009-JU-FX-0063.

5.      We recommend that OJP require Experience Corps to clearly document and
        maintain the analysis, negotiation, and justification for each awarded contract.




                                                27
       OJP agrees with the recommendation. We will coordinate with Experience Corps to
       obtain a copy of procedures implemented to ensure that the analysis, negotiation, and
       justification for each awarded contract is clearly and adequately documented.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Melodee Hanes
       Acting Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Marilyn Roberts
       Deputy Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Louise Duhamel, Ph.D.
       Acting Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20120732




                                              28
                                                      APPENDIX IV

           OFFICE OF THE INSPECTOR GENERAL
          ANALYSIS AND SUMMARY OF ACTIONS
            NECESSARY TO CLOSE THE REPORT

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
provided a draft of this audit report to the Office of Justice Programs (OJP)
and Experience in Action (Experience Corps). The responses are
incorporated respectively as Appendices II and III of this final report. We
incorporated into the report, the minor changes the grantee requested in
their response. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

  1. Resolved. OJP concurred with our recommendation and stated it will
     coordinate with Experience Corps to obtain a copy of procedures
     implemented to ensure that: (1) implement procedures to verify the
     accuracy of the data reported by its subgrantees; (2) require
     subgrantees to maintain supporting documentation for all Federal
     grant related activities for at least three years from the date of
     Experience Corps’ submission of its final expenditure report; and (3)
     implement consistent reporting tools to ensure that the necessary
     information is captured among subgrantees to validate required
     program accomplishments.

     Experience Corps concurred with our recommendation to develop
     procedures to verify the accuracy of the data reported by its
     subgrantees. Experience Corps included in its response, revised
     procedures from its policy manual designed to test and verify the
     accuracy of data reported by its subgrantees. We have reviewed these
     revised procedures, when implemented, should help verify the
     accuracy of data reported by its subgrantees. This recommendation
     can be closed when we receive evidence that the revised procedures
     have been implemented by Experience Corps’ personnel.

     Experience Corps concurred with our recommendation requiring
     subgrantees to maintain supporting documentation for all Federal
     grant related activities for at least three years from the date of
     Experience Corps’ submission of its final expenditure report.
     Experience Corps included in its response evidence that subgrantees
     had received compliance training regarding record retention at
     Experience Corps’ recent meeting of all its subgrantees in March of
     2012. Moreover, Experience Corps included with its response a copy


                                     29
  of an email sent to all subgrantees on June 4, 2012 outlining the
  record retention requirements of the Code of Federal Regulations.
  Experience Corps further states that each of its subgrantees has
  agreed to comply with federal regulations, including document
  retention requirements, as defined in the signed Experience Corps
  subgrantee agreement each subgrantee signs before receiving OJP
  funds. The documentation provided by Experience Corps clearly
  outlines the requirements placed on its subgrantees for record
  retention in accordance with federal regulations. Therefore, this
  portion of our recommendation is closed.

  Experience Corps concurred with our recommendation to implement
  consistent reporting tools to ensure that the necessary information is
  captured among subgrantees to validate required program
  accomplishments. Experience Corps included in its response a plan for
  creating a policy to standardize information reported by subgrantees, a
  plan for disseminating the policy to the subgrantees at its national
  meeting of subgrantees in July of 2012, and a strategy for adding
  instructions to the subgrantee reporting form. We have examined the
  documents provided, and we have reviewed Experience Corps plan,
  which when implemented should provide consistent reporting tools to
  capture required program accomplishments of the subgrantees. This
  recommendation can be closed when we have evidence that
  Experience Corps’ plan has been implemented.

2. Closed. OJP and Experience Corps concurred with our
   recommendation. Experience Corps provided a copy of the adjusting
   journal entry removing $1,172 from the award expenses, and provided
   evidence that its May 25, 2012 drawdown request had been reduced
   by $1,172. This recommendation is therefore closed.

3. Closed. OJP concurred with our recommendation. While Experience
   Corps feels these charges for mentor stipends of $5,060 were
   appropriately charged to the grant, it concurs that the source
   documentation does not support the transactions. As a result,
   Experience Corps provided a copy of the adjusting journal entry
   removing $5,060 from the award expenses. Additionally, Experience
   Corp provided evidence that the May 25, 2012 drawdown request had
   been reduced by $5,060. This recommendation is therefore closed.

4. Closed. OJP and Experience Corps concurred with our
   recommendation. Experience Corps provided a copy of the adjusting
   journal entry removing $2,318 from the award expenses, and provided



                                 30
   evidence that its May 25, 2012 drawdown request had been reduced
   by the $2,318. This recommendation is therefore closed.

5. Resolved. OJP concurred with our recommendation and agreed to
   coordinate with Experience Corps to obtain a copy of procedures
   implemented to ensure that the analysis, negotiation, and justification
   for each awarded contract is clearly and adequately documented.

   Experience Corps also concurred with our recommendation and agrees
   that it should more clearly and adequately document the cost analysis
   and negotiation of awarded contracts. In its response, Experience
   Corps has committed to train its assigned staff in the process of
   procuring goods and services, including preparing documentation
   related to comparing value and economy, by July 31, 2012.
   Additionally, Experience Corps will develop templates to be used by
   staff to ensure a consistent practice of documentation. Experience
   Corps’ plan for training its staff on the importance of adequately
   documenting the analysis, negotiation, and justification for each
   awarded contract is sound. This recommendation can be closed when
   we have evidence of the training curriculum, the list of attendees, and
   the templates used as tools for adequately documenting the analysis,
   negotiation, and justification of contract selection.




                                  31
